OIG Investigative Reports, February 14, 2012 Fresno, CA - Fresno And Merced County Residents Arrested In Student Aid Fraud Scheme
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Reports
United States Attorney Benjamin B. Wagner
Eastern District of   California
Fresno And Merced County Residents Arrested In Student Aid Fraud Scheme
FOR IMMEDIATE RELEASE
February 14, 2012
www.usdoj.gov/usao/cae
Docket #: 1:12-cr-0031 AWI -DLB
CONTACT: Lauren Horwood
PHONE: (916) 554-2706
usacae.edcapress@usdoj.gov
FRESNO, Calif. — United States Attorney Benjamin B. Wagner   announced the arrest today of Piersha Woolridge, 34, Yvette August, 41, both of   Atwater; Kim Gray, 39, of Los Banos; and Keith Woolridge, 41, of Fresno. A   federal grand jury returned an indictment against them on February 2, 2012   charging them with conspiring to commit student aid fraud and identity theft. In   addition, the indictment charged Piersha Woolridge with 13 counts of mail fraud.   The indictment was sealed until their arrest today.
According   to the indictment, the defendants conspired to defraud the U.S. Department of   Education of student aid grants and loans by submitting false financial aid   applications to Axia College at the University of Phoenix and Capella University   on behalf of students who did not intend to attend either school. The indictment   alleges that in some cases the defendants used stolen or wrongfully obtained   personal identifying information for persons who did not know their identities   would be used to apply for college financial aid. The indictment alleges that as   a result of the conspiracy, over $200,000 in grants and loans were disbursed,   resulting in approximately $110,000 being paid to the   defendants.
This case is the product of an investigation by   the Department of Education, Office of Inspector General and the U.S. Postal   Inspection Service. Assistant United States Attorney Mark J. McKeon is   prosecuting the case.
“U.S. Attorney Wagner said: “Federal   student loan programs are intended to improve the long-term prospects of   students committed to education and to create a more competitive economy for the   nation. Those who rip off these programs are not only stealing from the   taxpayer, they are taking money intended for deserving students. The U.S.   Department of Justice will continue to target fraudsters who perpetuate student   loan fraud schemes.”
“Scams like this steal money from   hardworking taxpayers and legitimate students and that is unacceptable,” said   Natalie Forbort, Special Agent in Charge of the U.S. Department of Education   Office of Inspector General’s Western Regional Office. “OIG is committed to   fighting student financial aid fraud and we will continue to aggressively pursue   those that participate in these types of crimes.”
The maximum   statutory penalty for a violation of conspiracy is five years in prison and a   $250,000 fine, and the maximum statutory penalty for mail fraud is 20 years in   prison and a $250,000 fine. If convicted, the actual sentence will be determined   at the discretion of the court after consideration of any applicable statutory   factors and the Federal Sentencing Guidelines, which take into account a number   of variables.
The charges are only allegations and the   defendants are presumed innocent until and unless proven guilty beyond a   reasonable doubt.
####
Top
Printable view
Last Modified: 02/23/2012
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov